<html>
<title> - OVERCROWDED HOUSING AND THE IMPACTS ON AMERICAN INDIANS AND ALASKA NATIVES</title>
<body><pre>[Senate Hearing 115-404]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-404

  OVERCROWDED HOUSING AND THE IMPACTS ON AMERICAN INDIANS AND ALASKA 
                                NATIVES

=======================================================================

                              FIELD HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 25, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-406 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="accbdcc3eccfd9dfd8c4c9c0dc82cfc3c182">[email&#160;protected]</a> 





                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas                  TINA SMITH, Minnesota
JON KYL, Arizona
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Field hearing held on August 25, 2018............................     1
Statement of Senator Murkowski...................................     1
    Prepared statement...........................................     5

                               Witnesses

Brancaleone III, Gaetano, Principal, Hogarth Kingeekuk Sr. 
  Memorial School................................................    19
    Prepared statement...........................................    21
Gologergen, Brianne P., Clinic Manager, Norton Sound Health 
  Corporation....................................................    22
    Prepared statement...........................................    24
Iya, Jacob, Student, Hogarth Kingeekuk Sr. Memorial School.......    21
Kolerok, Christopher, President/CEO, Bering Straits Regional 
  Housing Authority..............................................    13
    Prepared statement...........................................    15
Pungowiyi, Hon. Delbert, President, Native Village of Savoonga...    10
    Prepared statement...........................................    12
Stuckey, Greg, Administrator, Alaska Office of Native American 
  Programs, U.S. Department of Housing and Urban Develompent.....     7
    Prepared statement...........................................     8

                                Appendix

David, Mary, Acting President, Kawerak Inc., prepared statement..    35
Norton Sound Health Corporation, prepared statement..............    37

 
  OVERCROWDED HOUSING AND THE IMPACTS ON AMERICAN INDIANS AND ALASKA 
                                NATIVES

                              ----------                              


                       SATURDAY, AUGUST 25, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                      Savoonga, AK.
    The Committee met, pursuant to notice, at 10:56 a.m. 
Hogarth Kingeekuk Sr. Memorial School, Savoonga, Alaska, Hon. 
Lisa Murkowski presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Good morning. Before we begin the 
hearing of the Senate Indian Affairs Committee, I would like to 
ask Barbara Kogassagoon to come and provide us with an 
invocation and a blessing. So Barbara, if you would share with 
us.
    Ms. Kogassagoon. [Invocation and remarks off microphone].
    Senator Murkowski. Barbara, thank you. It is so good to 
have our esteemed elder begin this hearing with words of 
welcome and words of prayer. Thank you.
    With that, the Committee will come to order. We are here 
this morning in Savoonga to listen and to focus on over-crowded 
housing and the impacts on American Indians and Alaska Natives. 
I think that this is probably, perhaps most certainly, the very 
first ever Congressional hearing that has been held in 
Savoonga, Alaska. Pretty sure that that is accurate.
    So I'm very pleased today to be able chair this field 
hearing for the Senate Indian Affairs Committee. I want to 
thanking those of you who have helped us make this possible 
this morning, so many of your community leaders. To the 
community of Savoonga for hosting, not only myself and those 
who are traveling with me, but those who have come from around 
Alaska and around Washington, D.C.
    So I thank the Native Village of Savoonga, the City of 
Savoonga, the Bering Straits School District, Kawerak, the 
Norton Sound Health Corporation, the Bering Straits Housing 
Authority, and the Association of Alaska Housing Authorities 
for working with us to make this hearing possible.
    I also want to acknowledge and thank one of my former staff 
people and a good friend of mine, Megan Alvanna-Stimpfle, for 
her help. She is truly one of this generation's upcoming 
leaders. Her support and guidance not only here in Savoonga but 
throughout the region is just greatly appreciated. So Megan, it 
was wonderful to be welcomed by you when we got off the plane.
    So here we are, back in Savoonga. I was here last year when 
we had the ribbon-cutting for the clinic. It was at that time 
that I was with Barbara and she once again started the day's 
festivities and formalities off with a blessing. That was an 
important milestone, last year. To be here today, to talk about 
the issue of housing, is again an important milestone.
    My very fist trip to Savoonga, some of you may remember. 
This was in, either 2003 or 2004, and I had asked the Secretary 
of Education, Secretary Rodney Paige, to come with me to Alaska 
to see and understand some of the educational issues that we 
face here in this State. Because he wasn't very enthusiastic 
about allowing Alaskans to have a waiver with No Child Left 
Behind, you'll remember that was when the rules required that 
if your school didn't perform well then you had to be allowed 
to attend a school that was your next closest school.
    So in other words, if the school here in Savoonga did not 
meet adequately yearly progress, your students, Jacob, you 
would have been attending Nome High School every day. Because 
that was what the law was going to require if this school 
failed to meet adequately yearly progress.
    So we brought the Secretary over here to understand that 
maybe in Alaska, things are a little different. And he saw 
that. But the other thing that that Secretary saw when he 
visited with the teachers and the principals, he realized that 
housing is a huge issue. The principal at the time, I don't 
recall his name, was from Kansas. He said his wife was back in 
Kansas. I said, why is your wife in Kansas? He said, well, I 
don't have a place to live here. I said, where do you live? He 
opened up a door there in the school. It was an old broom 
closet, and that was where the principal lived.
    Now, I've just met your principal, I've just Gaetano, I 
think the fourth. I can't imagine you and your young family 
living in the broom closet here at the school. And yet I 
visited with the elementary school teacher, the second grade 
teacher at the time, I said, where do you live? She pulled out 
a gym mat that she slept on at night in her classroom.
    That really struck the Secretary. He said, how can we 
educate our kids if our teachers don't have a place to live? It 
was at that time that we embarked on a very aggressive effort 
to build out teacher housing around the State. We've made some 
good headway working with our partners, but we know that still 
have a way to go there.
    So I share that story with you because I think it's 
important that that interaction that I had about 10 or 11 years 
ago here in Savoonga has left an impression on me with regard 
to the need to address housing in Alaska, housing in rural 
Alaska, housing in our Native villages. Because if we can't 
provide safe, affordable housing that is acceptable, then it is 
going to be very difficult to keep the professionals and keep 
your families here.
    So we have a very significant panel of individuals to speak 
to us this morning, to testify. Before I introduce them, I 
would like to recognize the staff of the Indian Affairs 
Committee that have joined us here in Savoonga. We have Mike 
Andrews, behind me, who is the Majority Staff Director and 
Chief Counsel for the Committee. He has had an opportunity to 
be in many Alaskan communities, but this is his first visit out 
here to St. Lawrence Island.
    He is joined by Jacqueline Bisille. She is Policy Advisor 
for the Committee. We have Jennifer Romero, who is the Minority 
Staff Director and Chief Counsel for the Committee. She is from 
Santa Clara Pueblo, from New Mexico. She is joined by Anthony 
Sedillo, also from New Mexico. He is a Senior Policy Advisor 
for the Committee. And then I have my two staff people who help 
me on the Indian Affairs Committee, Ben Mellotte, is Tlingit 
from Yakutat, and Eric Reamers, Yupik, from Iliamna. They have 
been strong advisors for me on my Indian Affairs Committee. I'm 
thankful that they are here as well.
    I also want to take a moment and introduce my Rural Affairs 
Director-Coordinator, Deborah Vo. Deborah is from St. Marys. 
She has had an opportunity to be with me on many different 
occasions. Hannah Rae is down here in front with the camera. 
I'd also like to recognize Senator Sullivan's staff, Kate 
Wildermuth. Kate is know to many of you and has been doing 
great work for Senator Sullivan.
    So today we have an opportunity again to take testimony on 
overcrowding. Our witnesses will lay out the issues, the 
problems, the statistics, and hopefully some solutions. We know 
that there's a great deal of work to be done in this area, and 
what you can share with us is so important.
    So let's start with a few statistics, very quickly. At the 
beginning of this year, there was an Alaska Statewide Housing 
Assessment. It really pinpoints the extent of the problem in 
rural Alaska, particularly in our Alaska Native villages. The 
report states that in rural Alaska, we have nearly 50 percent 
of all households in some areas that are experiencing 
overcrowding. From a national perspective, overcrowding 
affected 16 percent of American Indian and Alaska Native 
households in tribal areas and 10 percent in urban areas. When 
you compare this with the rest of U.S. households, only 2 
percent of all U.S. households are overcrowded.
    Here in this region, in the Bering Straits region, one of 
the highest overcrowding rates in the State. It is estimated 27 
percent of households are overcrowded or severely overcrowded. 
The rate in the Bering Strait region is more than 4.3 times the 
statewide average and more than 8.3 times the national average.
    I think it is important for us to recognize that what we 
will hear today is what you live with. But it is not the norm 
throughout the State, and certainly not throughout the Country.
    I think it is also important that when we look to these 
definitions of how do you define overcrowding that oftentimes, 
it is an expression of what is actually homelessness, with 
families taking in relatives or community members who otherwise 
could not find affordable housing options. I just had a 
conversation with about a half dozen people as we were coming 
in. And that is just what happens here, even though you are an 
adult and you have your own family, you are living with your 
parents, you are living with aunts and uncles, you are living 
with multiple generations.
    I hope this morning we will also hear about the high cost 
of housing. The report, the housing assessment, shows what we 
all know, that costs are too high, nearly 80,000 cost-burdened 
families who are spending over 30 percent of their income on 
housing alone throughout the State. In addition, our stock of 
housing is deteriorating. We are not keeping pace with expected 
population growth.
    So again, statistics that you all know, but within our 
State, 18 percent of all Alaska Native households lack 
plumbing, 15 percent lack kitchen facilities. An estimated 465 
homes in the Bering Strait region do not have access to running 
water or sewer. We have five communities within the region, 
Stebbins, Teller, Wales, Diomede, and Shishmaref, completely 
underserved.
    Again, we know that these figures are not exclusive to 
Alaska. All across Indian Country, we see problems with access 
to quality and affordable housing. Again, the opportunity to 
put this information on the record, so that not only the 
community hears this, the members of the Indian Affairs staff 
hear this, but remember what happens when a written record is 
created. That means it is then available for the entire Senate, 
for all of Congress. It is a public record that we are creating 
here.
    So the process this morning is, I will introduce each of 
our witnesses. They will have an opportunity to provide their 
testimony. We have asked them to try to keep their oral 
comments to about five minutes. But their entire written 
statement will be included as part of the record, as mine will 
be.
    So hopefully, this is an opportunity for you not to feel 
scripted and stick to your written words, but speak to us about 
the extent of the issues, the reality of what it means to be in 
a community and a village and a region where overcrowding is so 
pervasive. For those who have joined us in the audience, this 
is not going to be an opportunity for you to share your stories 
through an open mic, but directly after the hearing, we are 
going to have a community lunch, and there will be an 
opportunity to engage in dialogue not only with myself and the 
staff, but the staff from HUD. So hopefully this exchange will 
continue.
    After each of the witnesses have given their testimony, I 
will proceed with a series of questions, so that we have good 
discussion to place on the record. So at this time, we will 
proceed with introductions and then testimony. Because we are 
operating without the benefit of a mic, we will have the 
recorder being passed down and around, so we can get the 
comments on the record. I would ask each of you to try to speak 
as loudly as you can, so that all can hear.
    We are going to lead the testimony off this morning with 
Mr. Greg Stucky. Greg is the Administrator for the Office of 
Native American Programs, with the Department of Housing and 
Urban Development (HUD), based out of Anchorage. Of course you 
all know our friend and the honorable President of the Native 
village of Savoonga, Mr. Delbert Pungowiyi. Delbert has been a 
friend and very helpful with us as we have set up this hearing.
    We had hoped that we would have Myron Kingeekuk, the Mayor 
of Savoonga. Myron is on travel. We all understand what that 
means, so he won't be able to participate today. But we have 
Christopher Kolerok, known to so many of us. Christopher is the 
President and CEO of the Bering Straits Regional Housing 
Authority. Following Chris will we have your principal here at 
Hogarth Kingeekuk Memorial School here in Savoonga, Mr. Gaetano 
Brancaleone. It's wonderful to have you here. We appreciate 
your leadership at the school.
    Following Gaetano, we will have Brianne Gologergen, who is 
the Savoonga Clinic Manager, with Norton Sound Health 
Corporation. Wonderful to have you here.
    Following Gaetano's testimony, we are going to have a 
special voice from the young people, a student who was selected 
to speak today. So Jacob Iya, we will welcome your comments as 
well. So we have a good panel here this morning. I would ask 
you, Mr. Stuckey, if you want to begin. I am going to be less 
formal in this hearing and call people by their first names, so 
hopefully you don't take offense at my informality. I feel this 
is certainly a place that we should have good discussion while 
we place this important information on the record.
    So Greg, if you would like to lead the Committee off. 
Again, thank you for being here.
    [The prepared statement of Senator Murkowski follows:]

  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska
    Good morning. The Committee will come to order, as we begin our 
field hearing on ``Overcrowded Housing and the Impacts on American 
Indians and Alaska Natives.''
    I believe this is the first-ever congressional field hearing held 
in Savoonga. I'm very glad to be here today to chair it, and very glad 
you all could be here today for it.
    I want to start by thanking all who helped make this one-of-a-kind 
hearing possible. I thank the community of Savoonga for being such 
great hosts and welcoming us into your homes and school. I want to 
thank the Native Village of Savoonga, the City of Savoonga, the Bering 
Straits School District, Kawerak, the Norton Sound Health Corporation, 
the Bering Straits Housing Authority, and the Association of Alaska 
Housing Authorities for working with us to make this hearing possible.
    I also want to thank one of my former staff members, Megan Alvanna-
Stimpfle, for her help. She is part of the next generation of Alaska 
Native leaders and I couldn't be more proud of her.
    It's great to be back here in Savoonga. I'll never forget the first 
time I visited here. It was 2009 and I flew out here with Education 
Secretary Arne Duncan. This was just after he released his proposed 
reform of the No Child Left Behind Act and I took him out here to show 
him that his one-size-fits-all approach wasn't going to work in Alaska. 
I also visited your beautiful Island last year, when I was here for the 
opening of your new health clinic. The Norton Sound Health Corporation, 
along with local community members, worked so hard to secure funding 
for new clinics both here in Savoonga and for your neighboring village 
of Gambell. I was honored to be a part of the opening ceremony because 
I know that the new clinics will provide invaluable improvements in 
providing high quality, modern healthcare. Again, I appreciate the work 
of the community leaders in providing such a crucial service for their 
members.
    We have a very significant panel of individuals who will testify 
this morning. But, before we begin, I would like to recognize the staff 
of the Indian Affairs Committee that have joined us here in Savoonga. 
We have Mike Andrews, who is the Majority Staff Director and Chief 
Counsel for the Committee. He is joined by Jacqueline Bisille, who is a 
Policy Advisor for the Committee. We also have Jennifer Romero, who is 
the Minority Staff Director and Chief Counsel for the Committee. She is 
joined by Anthony Sedillo, who is a Senior Policy Advisor for the 
Committee. I'm happy they could make the trip and I hope this will be 
an opportunity to better understand some of the challenges we face in 
Alaska.
    So today, we have an opportunity to take testimony on overcrowding 
and the impact it has our indigenous population. Our witnesses will lay 
out the issues, the problems, the statistics, and hopefully the 
solutions to these problems. We have many dedicated and qualified 
people working to improve the housing conditions and lives of American 
Indians and Alaska Natives. However, there is still a lot of work to be 
done.
    Earlier this year I reviewed the 2018 Alaska Statewide Housing 
Assessment. It illustrates how much work there is to be done, 
particularly in rural Alaska, where the population is predominantly 
Alaska Native. The report states that in rural Alaska, we still have a 
huge issue with overcrowding--with nearly 50 percent of all households 
in some areas experiencing overcrowding.
    Overcrowding affected 16 percent of American Indian and Alaska 
Native households in tribal areas and 10 percent in urban areas. In 
comparison, only two percent of all U.S. households experienced 
overcrowding.
    The overcrowding rate here in the Bering Strait region is one of 
the highest in the state, with an estimated 27 percent of households 
being classified as overcrowded or severely overcrowded. The rate of 
overcrowding in the Bering Strait region is more than 4.3 times the 
statewide average and more than 8.3 times the national average.
    I think it is important to point out that overcrowding in Indian 
Country is often the expression of what is actually homelessness, with 
families taking in relatives or community members who otherwise could 
not find affordable housing options. It is not uncommon for a household 
in rural Alaska to have multiple generations or multiple families 
living in them.
    The report also showed that costs are still too high--with nearly 
80,000 cost-burdened families who are spending over 30 percent of their 
income on housing alone. In addition, our stock of housing is 
deteriorating and we are not keeping pace with expected population 
growth.
    The statistics for housing quality are particularity daunting for 
Alaska, with 18 percent of all Alaska Native households lacking 
plumbing and 15 percent lacking kitchen facilities. An estimated 465 
homes in the Bering Strait region do not have access to running water 
or sewer, with five communities-Stebbins, Teller, Wales, Diomede, and 
Shishmaref-remaining completely underserved.
    I am aware these figures are not exclusive to Alaska. All across 
Indian Country we are seeing the problem with access to quality and 
affordable housing. That is why housing in rural and Native American 
communities must be part of the discussion in the 115th Congress.
    What we will do this morning is hear from each of the witnesses to 
add to this discussion. I urge the witnesses to try to keep your 
opening testimony to about five minutes each. But, we're not going to 
cut you off, either, since this is important testimony that will be 
entered into the congressional record.
    For those who are joining us in the audience, we won't have an open 
mic, but directly following the hearing, you will have an opportunity 
to engage in dialogue with myself, the staff of Indian Affairs, and the 
staff from HUD. So if you have any questions to ask us, feel free to 
ask them at the community meeting directly following this hearing.
    After each of our witnesses have given their testimony, I will 
proceed with a series of questions, to facilitate a good constructive 
discussion going back and forth.
    So with that, I'll introduce each of the witnesses--

  <bullet> MR. GREG STUCKEY, Administrator, Office of Native American 
        Programs, Department of Housing and Urban Development (HUD), 
        Anchorage, AK

  <bullet> MR. DELBERT PUNGOWIYI, President, the Native Village of 
        Savoonga, Savoonga, AK

  <bullet> THE HONORABLE MYRON KINGEEKUK, Mayor, City of Savoonga, 
        Savoonga, AK

  <bullet> MS. BRIANNE P. GOLOGERGEN, Savoonga Clinic Manager, Norton 
        Sound Health Corporation, Savoonga, AK

  <bullet> MR. GAETANO BRANCALEONE III, Principal, Hogarth Kingeekuk 
        Sr. Memorial School, Savoonga, AK

  <bullet> MR. CHRISTOPHER KOLEROK, President/CEO, the Bering Straits 
        Regional Housing Authority, Nome, AK

    I want to remind the witnesses that your full written testimony 
will be made a part of the official hearing record.

  STATEMENT OF GREG STUCKEY, ADMINISTRATOR, ALASKA OFFICE OF 
                NATIVE AMERICAN PROGRAMS, U.S. 
          DEPARTMENT OF HOUSING AND URBAN DEVELOMPENT

    Mr. Stuckey. Thank you, Senator Murkowski, for this 
opportunity to discuss overcrowded housing and the impacts on 
American Indian and Alaska Natives and the programs 
administered by the U.S. Department of Housing and Urban 
Development, specifically authorized by the Native American 
Housing Assistance and Self-Determination Act of 1996, referred 
to as NAHASDA.
    As the Administrator for HUD's Alaska Office of Native 
American Programs and formerly the Administrator-Advisor for 
AONAP, I have had the opportunity to visit and work with 
communities to learn first-hand about the issues and challenges 
that tribes face, and to hear directly from tribal leaders what 
we need to do to strengthen and improve HUD's policies and 
programs for Alaska Natives.
    I also had the pleasure and honor to work as a tribal 
administrator for my children's tribe at Chilkoot Indian 
Association in Haines, Alaska, Southeast Alaska, for almost six 
years.
    Far too many families live in unacceptable circumstances, 
as we heard from Senator Murkowski's testimony just moments 
ago, and face a future that lacks access to educational and 
economic opportunity. To put this into greater perspective, in 
2006 to 2010, AIAN people in large tribal areas were more than 
seven times as likely to live in housing that was considered 
overcrowded. As we heard from those statistics, here in the 
Bering Straits region, it's almost nine times the national 
average.
    I was just provided some information from Kawerak that here 
in Savoonga it is 20 times the national average. So the impact 
of overcrowding in Alaska is certainly more severe than in 
other places.
    HUD is aware of the housing assessment by Alaska Housing 
Finance Corp. And in that assessment, it talks about, in order 
to eradicate overcrowding and match the population growth of 
our communities by 2025, we need to increase the production of 
new units by 90 percent. In order for HUD to put more resources 
on the table, the Office of Native American Programs is hard at 
work crafting two notices of funding availabilities. The first 
one that is going to come out is called Indian Community 
Development Block Grant. We expect that to be published in the 
fall of 2018. I think September or October.
    Then our new program, the competitive $100,000 for Indian 
Housing Block Grant Funding, we are working hard to have that 
notice crafted in the winter of 2018, which is more like 
December, January 2019. While the HUD Reform Act precludes me 
from giving the details of that NOFA prior to its publication, 
we will, it will reflect the Congressional directives in that 
Act, namely that in making awards, HUD will one, consider need 
and administrative capacity, and two, give priority to projects 
that will spur construction and rehabilitation. HUD will also 
give the maximum time to our tribal partners to respond to 
those notices.
    One other project is happening in ONAP that I have 
awareness of but not a deep understanding. It is a project to 
increase the amount of funding available through our Title VI 
loan guarantee program. So we are working on a project that 
will, one, allow those resources to be used sooner in the 
Federal fiscal year, and approximately add 40 percent more 
funding to that pot of funds with no more appropriations. So 
that project is something else that HUD is working on to try to 
bring more resources to deal with the overcrowding issue that 
we are dealing with here in Alaska.
    I am going to stop my comments, because I want to spend 
more time having a discussion, as, Senator Murkowski, you 
suggest. I will conclude my testimony.
    [The prepared statement of Mr. Stuckey follows:]

  Prepared Statement of Greg Stuckey, Administrator, Alaska Office of 
       Native American Programs, U.S. Department of Housing and 
                           Urban Develompent
Introduction
    Thank you Chairman Hoeven, Senator Murkowski and Members of the 
Committee for this opportunity to discuss overcrowded housing and the 
impacts on American Indian and Alaska Natives (AIAN) and the programs 
administered by the U.S. Department of Housing and Urban Development 
(HUD), authorized by the Native American Housing Assistance and Self-
Determination Act of 1996 (NAHASDA).
    As the Administrator for HUD's Alaska Office of Native American 
Programs (AONAP) and formerly as the Administrator Advisor for AONAP, I 
have had the opportunity to visit and work with AIAN communities to 
learn first-hand about the issues and challenges the tribes face, and 
to hear directly from tribal leaders what we need to do to strengthen 
and improve HUD's policies and programs for Alaska Natives. Far too 
many AIAN communities struggle with overcrowded housing, shortages of 
affordable housing, substandard living conditions, and significant 
barriers to economic opportunity.
    Today, one out of four Native Americans lives in poverty--including 
more than one-third of all Native American children. Far too many 
families live in unacceptable circumstances and face a future that 
lacks access to educational and economic opportunity.
    To put this into greater perspective, in 2006-2010, AIAN people 
living in tribal areas had a poverty rate and an unemployment rate that 
were approximately twice as high as the national averages. During this 
same period, AIAN people in large tribal areas were more than seven 
times as likely to live in housing that was overcrowded and more than 
four times as likely to live in housing that did not have adequate 
plumbing facilities and/or kitchens than the national average.
    In 2017, HUD published Housing Needs of American Indians and Alaska 
Natives in Tribal Areas, the product of a congressionally mandated, 
multi-year study of housing needs and conditions in Indian Country. The 
study concluded that 68,000 units were needed to address overcrowding 
of the AIAN population in tribal areas (33,000 new units and 35,000 
units to replace ones that were severely physically inadequate). The 
study also estimated, during the same period, between 42,000 and 85,000 
people in tribal areas were staying with friends or relatives only 
because they had no other housing option.
HUD Native American Programs
    In my capacity as the Administrator, I work closely with HUD senior 
leadership to oversee Federal programs that support Native American 
communities: the Indian Community Development Block Grant (ICDBG) 
program; the Indian Housing Loan Guarantee (Section 184) program; the 
Indian Housing Block Grant (IHBG) formula program; the Tribal Housing 
Activities Loan Guarantee (Title VI) program; the Tribal HUD-VASH 
demonstration program; and the soon to be announced IHBG Competitive 
program.
    ICDBG Program. In 1977, the Housing and Community Development Act 
of 1974 was amended to set aside competitively awarded funding for 
American Indian tribes within the Community Development Block Grants 
(CDBG) program. It is a competitive, flexible program that funds myriad 
local community investments--including, affordable housing 
infrastructure in Indian Country, such as water, sewer, and community 
facilities. Congress also typically appropriates funding under this 
program to address imminent threats to health and safety and has 
provided specific funding for mold remediation.
    During the last five years (2013-2017), ICDBG has funded the 
construction of 144 community buildings and the substantial 
rehabilitation of almost 3,300 affordable housing units. In FY 2017, 
ICDBG funded the construction of 20 community buildings and the 
rehabilitation of 555 affordable housing units. In Alaska, it funded 
the rehabilitation of 79 housing units, construction of nine new 
housing units, construction of a multi-purpose community building, 
rehabilitation of a senior center, and rehabilitation of a family 
violence shelter.
    Section 184 Program. The Section 184 program was authorized by the 
Housing and Community Development Act of 1992, as amended. Since its 
inception, the program has guaranteed more than 41,000 mortgage loans 
totaling more than $7 billion. The program is the primary vehicle to 
access mortgage capital in Indian communities by providing access to 
market-rate, private mortgage capital to qualified Native American 
families. In addition to individual home loans, tribes and tribally 
designated housing entities (TDHE) are eligible borrowers. As 
borrowers, tribes and TDHEs can finance and develop new rental housing 
or create homeownership opportunities for tribal members through lease 
purchase programs.
    NAHASDA Programs. NAHASDA is the statute that authorizes the Indian 
Housing Block Grant (IHBG) program and the Title VI loan guarantee 
program.
    NAHASDA supports the government-to-government relationship between 
the Federal Government and tribal governments, established by long-
standing treaties, court decisions, statutes, Executive Orders, and the 
United States Constitution. NAHASDA recognizes the importance of tribal 
sovereignty and is designed to provide flexibility and local control, 
so that each tribe can decide how best to address its unique housing 
needs and economic priorities.
    The IHBG program is the single largest source of Federal funding 
for housing in Indian Country. IHBG funds are distributed annually, by 
formula, to eligible tribes or their TDHEs, to provide a range of 
affordable housing activities that primarily benefit low-income Indian 
families living on Indian reservations or in other Indian areas.
    In FY 2017, tribes built or acquired 851 affordable housing units 
using IHBG funds, and about 4,629 units were substantially 
rehabilitated. In addition, tribes operated, maintained, and renovated 
about 41,000 units of housing developed under the U.S. Housing Act of 
1937. Since the program's first year of funding in 1998 through 
September 2017, recipients have built or acquired more than 40,000 
units of affordable housing and rehabilitated about 92,000 units. This 
represents some of the most important and consistent uses of program 
funds, but it does not reflect the entire scope of program activity. 
For example, since 2013, tribes have used IHBG funds to purchase around 
1,359 acres of land to develop affordable housing and have provided 
down payment or closing cost assistance to more than 4,269 families.
    The Title VI Loan Guarantee Program (Title VI) promotes affordable 
housing opportunities by leveraging IHBG funds with private capital. 
Under Title VI, a tribe or TDHE can use IHBG funds to leverage private 
financing to fund affordable housing activities, so that it can 
undertake larger affordable housing projects. HUD guarantees 95 percent 
of the principal and interest on the loan, and tribes pledge a portion 
of their annual IHBG grant as payment and security for the loan. Title 
VI projects often use multiple sources of funding, span several years, 
and include infrastructure development. From the inception of the Title 
VI program in 2000 through June 30, 2018, HUD has guaranteed a total of 
100 loans, for a total of $243.1 million. Approximately 3,276 
affordable units are associated with these loans.
    According to the Housing Needs of American Indians and Alaska 
Natives in Tribal Areas, ``. . .tribes have demonstrated the capacity 
to construct and rehabilitate housing for low-income families at 
substantial levels under the NAHASDA framework.'' Since 1998, under 
NAHASDA, tribes have not only produced more housing units per year, but 
they have produced better housing--housing that is tailored for local 
conditions, customs, and climates. Tribes also use the flexible block 
grant in many different and innovative ways to address unique local 
needs, such as assisting college students with housing, counseling 
prospective homeowners, providing self-sufficiency training to 
residents, and maintaining critical community infrastructure.
    New ONAP Programs. Two new ONAP efforts, the Tribal HUD-VASH 
demonstration program and the recently appropriated funds for new IHBG 
competitive grants, are aimed at addressing the issues of homelessness, 
overcrowding, and lack of decent affordable housing in Indian County.
    The Tribal HUD-VASH program is a partnership with the U.S. 
Department of Veterans Affairs to provide case management services and 
housing to veterans who are homeless or at-risk of homelessness. Tribal 
HUD-VASH is modeled after the standard HUD-VASH program, which has been 
successful in many communities across the country but was unable to 
reach eligible Native American veterans living on tribal lands, largely 
because tribes and TDHEs were not eligible to administer the program.
    Currently, 300 Native American veteran families are being housed by 
the program. Here in Alaska, two of the three Tribal HUD-VASH grantees 
in the state, Cook Inlet Regional Housing Authority and Tlingit and 
Haida Regional Housing Authority, are close to fully utilizing their 
grant funding, housing 34 veterans (17 each) out of a possible 40 
veterans. Nationwide, HUD and VA are working together to support full 
utilization of the 500 Tribal HUD-VASH vouchers funded to date.
    The FY 2018 Consolidated Appropriations Act authorized $100 million 
for new IHBG competitive grants to address housing needs in Indian 
Country. HUD is currently setting up the framework and developing a 
Notice of Funding Availability (NOFA) for this new program. Funds will 
be awarded based on need and capacity, and new construction and 
rehabilitation projects will be prioritized. HUD anticipates publishing 
a NOFA this winter and awarding the funding the spring of 2019--after 
allowing the tribes 90 days to submit an application for this new 
program.
    In conclusion, HUD's Indian Housing programs, including IHBG, 
ICDBG, Section 184, and Tribal HUD-VASH, are examples of Federal 
programs that are addressing overcrowding in Native American and Alaska 
Native communities by providing local choice, streamlining Federal 
requirements, and leveraging private market investment while respecting 
tribal self-governance.
    ONAP will continue to work together, at both the local and 
headquarters levels, with tribes and with HUD senior leadership to 
finds ways to address overcrowding and leverage the limited housing 
resources in Indian Country.
    Thank you again for this opportunity to appear before you today. I 
would be happy to answer any questions you may have.

    Senator Murkowski. Thank you, Greg. Again, your full 
statement will be incorporated as part of the record. We do 
appreciate it, that is good information you provided. We will 
follow up with questions.
    Delbert? Welcome. Thank you for welcoming us to your 
community.

STATEMENT OF HON. DELBERT PUNGOWIYI, PRESIDENT, NATIVE VILLAGE 
                          OF SAVOONGA

    Mr. Pungowiyi. The Honorable Lisa Murkowski, I thank you 
for coming out here and I thank you for hearing our people's 
voice. I thank you for coming out here heavy. So I start my 
testimony.
    My name is Delbert Pungowiyi. I serve as President for the 
Native Village of Savoonga. Our tribe serves over 900 tribal 
members, with our population continuing to grow with each 
generation. I was born in 1959, the same year Alaska 
established statehood with the United States. There was no 
electricity back then, and people still used dog teams. I was 
raised by my grandparents, who instilled in me our ancestral 
ways.
    A year and a half ago, Sue Steinacher and Brian Wilson, who 
was the Housing President for the Coalition for Alaska, Chris 
Kolerok and I were invited to the Fairbanks Housing Coalition 
meeting. I was invited to sit on the rural panel and had a 
chance to speak before the Governor's Council. I am very proud 
of that. I believe that was a moment that we got heard from 
Washington. And I thank you for hearing our crisis out here.
    At that meeting, I spoke of the housing crisis we have in 
Savoonga. That was several years back, when they did the 
overcrowdedness. There were 75 families within families and 
growing. The last housing that was built here in our community 
was 11 years ago. Eleven years later, now we have six units 
here. The cost of shipping, Chris will hit on that, to get the 
material out here is very expensive. The high cost of living on 
our island here is, in my opinion, astronomical because of our 
remoteness. I have said this before, we are so remote out here, 
our nearest neighbor is Russia, only less than 40 miles away.
    I spoke of the living conditions, there were some health 
inspectors who, in fixing some of these homes, would be 
condemned for living in, for health issues. The trauma that was 
asked about the children in overcrowded homes and the living 
conditions, it is not just the children that are going through 
trauma. It is the adults as well. I articulated into this, the 
social issues of our communities in the State. And I speak on 
behalf of all of rural Alaska on this, with our brothers and 
sisters in Gambell, as well.
    The social issues that come with the housing crisis is all 
tied with our economic situation. We all know that Alaska has 
the highest rate of suicide in the Nation, Alaska Natives have 
the highest rate of suicide in the Nation. That is from, we 
have high-schoolers graduating, but they have nothing to look 
forward to. The depression, being deprived, and hopelessness, 
which many turn to alcohol and drug abuse. Ultimately, the sad 
one is the suicide. They ultimately give up their lives.
    We have the highest rate of suicide in the Nation, and yet 
we are the minority, 16 percent Alaska Natives. Mike Dugan, who 
did a story on the research on suicide prevention in Alaska, in 
Anchorage Daily News, the State was being hit hard with suicide 
at that time. And he researched 20 years back, his report was 
that for the 20 years the Federal Government, and the State of 
Alaska, spent millions of dollars in suicide prevention, and 
the numbers have not changed. Something different needs to be 
done. That's why I articulated our housing crisis and our 
economic crisis that we are in. In all our social issues in our 
communities, we are in a crisis.
    And so with that being said, I think I would like to ask 
the Senator and Tribal Affairs, my heart goes out to all the 
region in the State. But I do believe that Savoonga and Gambell 
deserve special attention. As you will hear in our military 
grievance, the sacrifice we have given to our Nation, that this 
is long overdue. We believe that we deserve special attention, 
especially for the high cost of living out here, being so 
remote.
    So with that being said, I will end my comment there. I 
thank you. You have a beautiful heart. You heard us and you are 
here. I thank you.
    [The prepared statement of Mr. Pungowiyi follows:]

Prepared Statement of Hon. Delbert Pungowiyi, President, Native Village 
                              of Savoonga
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Murkowski. Delbert, thank you. I appreciate your 
raising so many issues. We all know that housing is more than 
just a structure, and how it impacts the social issues and the 
well-being of our families is important. I look forward to 
questions.
    Chris, thank you for being here and for your leadership.

STATEMENT OF CHRISTOPHER KOLEROK, PRESIDENT/CEO, BERING STRAITS 
                   REGIONAL HOUSING AUTHORITY

    Mr. Kolerok. Thank you. I would like to thank Chairman 
Hoeven, Vice Chairman Udall, Senator Murkowski and the 
honorable members of the Committee for the opportunity to share 
with you today.
    I will summarize my written testimony in the interest of 
time. I am the President and CEO of the Bering Straits Regional 
Housing Authority, the legislative chair of the Association of 
Alaska Housing Authorities and a board member for the Alaska 
Coalition on Housing and Homelessness.
    All of this has given me the experience to tell you that 
housing is the nexus of a healthy and economically fulfilled 
life. Performing well in school, holding down a good job, even 
our physical health, are all connected to a safe and sanitary 
and affordable home.
    Overcrowded housing is how homelessness is manifest in our 
villages. Unsheltered homelessness in our villages likely means 
death here for 8 out of the 12 months of the year. Rather than 
let someone die, the generous and kind people in our villages 
double, triple or quadruple up in homes, living in severely 
overcrowded conditions. So too is living in substandard 
housing, how our homelessness is displayed. People in 
Anchorage, Denver or Miami would choose unsheltered 
homelessness rather than the extremely substandard conditions 
some of our people face here.
    For some national context, HUD's assessment of American 
Indian and Alaska Native housing estimates that we need 60,000 
to 80,000 houses now to alleviate overcrowding. In the Bering 
Straits outside of Nome, the overcrowding rate is 37 percent. 
Nineteen percent of that are homes being classified as severely 
overcrowded. And that term is woefully inadequate.
    HUD defines severely overcrowded as 1.5 persons per room. 
In all of our villages, I have heard stories of families that 
have multiple generations and multiple families sharing a house 
due to the lack of available housing. During community 
meetings, we have been confronted with the heartbreaking 
stories of 21 people sharing a small three-bedroom home. That's 
21 people in a space that most Alaskans and most Americans 
might call a starter home.
    We know from studies in the circumpolar north that children 
in overcrowded homes perform worse in school, are more likely 
to be held back in grades, experience respiratory and skin 
infections at a higher rate than children in homes that are not 
overcrowded. Our children are literally physically harmed by 
the overcrowded conditions in which they live.
    When 21 people share a home, the occupants must sleep in 
shifts. Out of a great love for their children and belief that 
education may help them build a future, adults in a home like 
this will stay up all night while the children sleep in 
whatever beds, couches or even on the floor, so that they can 
go to school the next day. For these people who sleep the day 
shift, there is no chance for them to hold a regular job, which 
then creates its own self-reinforcing economic cycle.
    When someone in a 21-person home experiences substance 
abuse, 21 other people experience substance abuse. Substance 
abuse induced violence, theft or emotional abuse will affect 
every other person in that home.
    So too is the overcrowding affecting housing shortages and 
homelessness in our regional and urban centers. People in 
villages such as Savoonga are pushed out of their villages due 
to the lack of housing. They are pulled to Nome or Anchorage by 
simple economics. The GDP per capita in the 2010 census in 
Savoonga was $7,000, versus $37,000 in Anchorage.
    There is a migratory link between village regional hub and 
urban centers that people regularly traverse, moving from 
Gambell to Nome to Anchorage and back. People with nowhere to 
live will attempt to move to Nome for the jobs. There they will 
run into high rental prices and reduced social safety nets. 
After working full time and barely affording their rent, they 
may then try to move to Anchorage in search of more affordable 
housing, and again, decreasing their social safety net. In 
Anchorage, with fewer family members, their distance from 
homelessness may be just $50 on their rent payment.
    Housing development is handicapped by stagnant funds and 
rising costs. The Indian Housing Block Grant this year was 
approximately 28 percent lower than in 1997, when we adjust for 
inflation. An inflation-depleted Indian Housing Block Grant 
would be a tragedy in its own right, but construction costs are 
increasing. I have construction data for housing units built 
here in 1997 and costs have nearly tripled, versus the official 
inflation factor that the Bureau of Labor Statistics calculates 
as 58 percent.
    Compounding this, there are fewer contractors responding to 
RFPs now than there were in 2015. We do have some success, 
however, owing to the great power of the central idea of 
NAHASDA, which is self-determination rather than Washington 
determination. My construction manager who works for me full 
time is building to my standards and his standards. Our homes 
we are now building are 50-year homes. We have deliberately 
made the decision to build these homes to out-perform the older 
series of homes built, whether by drilling down to bedrock to 
drive our piles or utilizing structurally insulated panels. 
These homes, right out here, are built using Alaskan-sourced 
materials. The panel manufacturer is located in Wasilla.
    In October of 2017, these homes were burning five gallons 
of stove oil every other week. We estimate that those homes 
will burn about 220 gallons per year on an annual basis, versus 
our old homes that can sometimes burn 100 gallons per month.
    Senator Murkowski, thank you for being here. Thank you for 
this opportunity. But I need to tell you that we desperately 
need the Indian Housing Block Grant to be adequately funded. 
That funding needs to account for the inflation that's taken 
place over the last 20 years.
    Thank you very much for being here.
    [The prepared statement of Mr. Kolerok follows:]

   Prepared Statement of Christopher Kolerok, President/CEO, Bering 
                   Straits Regional Housing Authority
    Good morning Chairman Hoeven, Vice-Chairman Udall, and 
distinguished members of the Senate Committee on Indian Affairs. Thank 
you for the opportunity to appear today as the Committee hears 
testimony on Overcrowded Housing and the Impacts on American Indians 
and Alaska Natives.
    My name is Chris Kolerok, and I have the privilege to serve as the 
President and CEO of the Bering Straits Regional Housing Authority 
(BSRHA). I am also Cup'ik Eskimo, a tribal member of the Native Village 
of Mekoryuk. BSRHA is the regional housing authority in western Alaska 
and the Tribally Designated Housing Entity for 17 tribes. The Bering 
Straits region is approximately the size of Maryland, with 17 villages, 
accessible only by air year-round and by barge during the Summer 
months.
    This field hearing is taking place in a prescient location, 
overcrowded housing, and severely overcrowded housing, are prevalent in 
Savoonga, and all of the villages in the Bering Straits. Overcrowded 
housing is not limited to the Bering Straits region, but is common 
across Alaska and throughout Indian Country.
Overcrowded Housing in the Bering Straits, Alaska and the United States
    For American Indians and Alaska Natives, overcrowded housing is a 
manifestation of what would be unsheltered homelessness in other parts 
of the country. The Department of Housing and Urban Development's 
report Housing Needs of American Indians and Alaska Natives in Tribal 
Areas published in January 2017 estimated between 42,000 and 85,000 
Native Americans were doubled up, a term to describe a person living 
with friends or family to avoid homelessness because they have no 
residence. To alleviate overcrowding and replace substandard units in 
Indian country, the report estimated 68,000 housing units were needed 
in tribal areas.
    On a statewide level, the Alaska Housing Finance Corporation, the 
State's housing finance agency, published a housing assessment of 
statewide and regional housing needs in January 2018 titled 2018 Alaska 
Housing Assessment. The assessment found that some Alaskans regions 
experience overcrowding at 12 times that of the national average. AHFC 
estimated that 16,107 housing units would need to be constructed to 
accommodate the existing population in overcrowded housing.
    In Savoonga, unsheltered homelessness would lead to death during 
the fierce winter weather. Rooted in a close-knit culture and deep 
familial links, many families prefer to house people in need, and live 
in severe overcrowding, rather than let individuals risk certain death 
if they are unsheltered.
    The terms overcrowded and severely overcrowded are inadequate to 
address the situation in rural Alaska. HUD defines overcrowded as 1.5 
people per room in a housing unit. During informational meeting, I have 
heard anecdotes in more than one of our communities of 3-bedroom homes 
that were housing 21 people. These 3-bedroom homes are often in the 
range of 1,100 to 1,300 square feet. These conditions are extremely 
overcrowded, and represent a detriment to health and economic well-
being of those who are forced to live in such conditions.
    The scale of overcrowded housing is largest in the areas that are 
in the most need, the non-hub communities, which are villages that do 
not serve as transportation and commercial centers supporting smaller 
or surrounding villages. In the Bering Straits, overcrowded and 
severely overcrowded housing rates are approximately 37 percent, well 
above the approximately 3 percent overcrowded rate of the national 
average.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Impacts of Overcrowded and Substandard Housing on American Indians and 
        Alaska Natives
    The Institute of Social and Economic Research prepared a report for 
the Association of Alaska Housing Authorities titled ``Developing 
Social Outcomes of Inadequate Housing in Alaska'' identified many 
impacts to overcrowded housing. The report identified several areas 
where overcrowding negatively impacted occupants. What is particularly 
troubling is how much of the available research was able to show 
negative effects on the most vulnerable of our population: children. By 
way of summary, the areas are outlined below:

  <bullet> Health impacts: multiple studies confirmed that overcrowding 
        and poor quality of housing in the Canadian arctic is related 
        to increased respiratory and skin infections in children.

  <bullet> Educational impacts: children in overcrowded homes display 
        more behavioral problems in school and have more conflict with 
        their parents. One study found that children in overcrowded 
        homes achieve lower educational attainment. Another study found 
        that even controlling for family size, the overcrowding of a 
        home led to higher rates of being held back in school. In 
        subject specific studies, overcrowding decreased reading and 
        math scores.

    These studies conducted in the Canadian arctic and across the globe 
present serious challenges we must confront if we are to provide 
children in rural villages a chance at a healthy and productive life.
    Overcrowded housing and the lack of housing are interchangeable 
conditions in rural Alaska. The lack of safe, sanitary and affordable 
housing threatens the survival of Native cultures and the villages and 
towns many Alaska Natives call home. Tribal communities that lack 
decent housing often have difficulty or an outright inability to 
attract essential professionals to live in their communities. Health 
care providers, law enforcement officer and educators need safe, 
sanitary and affordable housing to assume their jobs, and without that 
housing those professionals will not move to a community. A community 
without adequate health care, law enforcement and education cannot 
survive, much less thrive.
    The Alaska Native Tribal Health Consortium conducted a study on 
home ventilation improvements. Though overcrowding was not a data set 
collected in the study, we know that having a more people living in a 
home contributes to increased moisture and can reduce the indoor air 
quality, which is what the study measured. There were 63 homes with 214 
children in eight villages, located in Southwest Alaska that had home 
modifications. One year after the modifications were completed, the 
results were astounding: a decrease in hospitalization went from 10 
cases to 0; clinic visits decreased from 36 to 12; and, school absences 
decreased from 18 to 3. These numbers are a testament to how the 
quality of housing directly affects the educational attainment and 
health quality of our children, elders and community members.
    Housing instability also impacts the health of our communities. 
Housing instability can be defined as homelessness, overcrowding, 
transiency, and high cost burden that many families' bear such as the 
cost of energy. Housing instability has health consequences, including: 
reduced access to care, mental distress, difficulty sleeping, and 
depression. In children, housing instability puts them at a higher risk 
for: developmental delays, low weight, and poor health overall. For 
youth, the consequences result in: behavioral and emotional problems, 
increased teenage pregnancy, increased drug use, increased rates of 
depression, and increased probability of using emergency rooms for 
routine care.
    Children who live in affordable housing, when compared to children 
whose families are of comparable means but who do not have access to 
affordable housing: are 35 percent more likely to be classified as a 
``well'' child; have a 28 percent lower risk of being seriously 
underweight; and are 19 percent less likely to be food insecure.
NAHASDA and the Indian Housing Block Grant
    In 1996 Congress enacted the Native American Housing and Self 
Determination Act (NAHASDA), and established the Indian Housing Block 
Grant (IHBG) as part of that act. This act acknowledged the Federal 
government's trust obligation to American Indians and Alaska Natives. 
NAHASDA also recognized the distinct affordable housing needs of 
American Indians and Alaska Natives, authorizing tribes to address 
their specific housing needs in the most effective ways. Prior to this, 
housing strategies were mandated by Federal officials sitting in 
offices thousands of miles away from the lands on which the homes were 
built.
    As an example, homes in Savoonga and Gambell are built to withstand 
120 mph wind gusts. Our winter storms require a different building 
standard and may not be needed in all of Alaska or other areas of the 
United States. These wind gusts may cause evacuations in other areas of 
the United States, however, evacuation due to extreme weather is not an 
option for the residents of Savoonga and Gambell. They must shelter in 
place and endure, as they have done for millennia.
    The IHBG has been a powerful and positive tool for housing 
construction in tribal areas. However, the potential positive impact 
has been eroded by inflation since NAHASDA's enactment in 1996. HUD's 
own study on native American housing needs states:

         ``The tribes have demonstrated the capacity to construct and 
        rehabilitate housing for low-income families at substantial 
        levels under the NAHASDA framework.''

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The report also points out a major impediment to that work: the 
decline in purchasing power of the IHBG by approximately 1/3 by the 
year 2014. Without consistent and inflation-proofed appropriations, the 
IHBG will not allow tribes and Tribally Designated Housing Entities to 
develop housing that will keep pace with existing housing stock. Due to 
increased development costs, the amount of housing developed will 
likely decrease in the future. Construction costs are one area that 
outpace the overall inflation rate. While inflation included items and 
services that have declined in cost over time, the cost of construction 
has only increased. Actual costs of construction have nearly trebled, 
using data pulled from Bering Straits Regional Housing Authority's own 
construction records of housing developed in Savoonga in 1997 and 2017.
Addressing Overcrowded Housing
    In order to address overcrowded housing, the largest single tool 
available to tribes and Tribally Designated Housing Entities is the 
Indian Housing Block Grant. Fully funding the IHBG with inflation 
proofed appropriations will allow more housing to be developed and help 
alleviate overcrowding in our communities. Though the IHBG and its 
flexibility is the most effective tool to allow tribes to design 
housing that meets their needs, there are other programs and public 
policy issues that can increase the amount of safe, sanitary and 
affordable housing for American Indians and Alaska Natives.
    The Tribal HUD-VASH program is another tool that shows the great 
potential of agency collaboration to house Alaska Native veterans, 
which are among the largest per capita population that serve in 
America's armed forces. In Alaska, three (3) entities were selected to 
participate in the Tribal HUD-VASH pilot program in Alaska, AVCP 
Regional Housing Authority, serving the Yukon-Kuskokwim region of 
Southwest Alaska, Cool Inlet Housing Authority in Southcentral Alaska, 
and Tlingit Haida Regional Housing Authority in Southeast Alaska. The 
Tribal HUD-VASH pilot program allowed Alaska Native veterans who were 
homeless or at risk of being homeless to be served along with their 
families, rather than the stricter HUD VASH program requiring veterans 
be chronically homeless. This allowed veterans to receive housing 
assistance with their family members, increasing the population served 
and keeping family units together. The program is still a demonstration 
project which means it has some barriers that must be worked out with 
different entities involved in its implementation. Making this program 
permanent, and flexible for Alaska, will help the Federal government 
meet two of its most important obligations: taking care of its veterans 
after their service to our country, and its trust responsibility to 
Alaska Natives and American Indians.
    Another issue that has the potential to impact housing Alaska is 
the accuracy of the decennial census count is of absolute importance 
for the Bering Straits, Alaska and all tribal areas in America. Tribal 
areas are often harder to count than urban, suburban or even the 
typical rural American census tract. Nowhere is this more true than 
Alaska. We have some of the most remote communities in the nation that 
have limited Internet accessibility. If Internet services are 
available, it is prohibitively expensive for most families and has very 
slow download speed to effectively complete an Internet-based census 
count. Additionally, many villages in Alaska are accessible only by air 
while the census count is happening, in the Bering Straits there is 
only 1 village connected to the regional transportation hub by road. 
However, this road is not guaranteed to be open during the winter. 
These topics should on the radar of the Census Bureau and sample counts 
should continue to occur in Alaska and across Indian Country. With 
Federal funding tied to population, an accurate count is of utmost 
importance to ensure hard to count census areas receive the formula 
funding to which they have access.
    Finally, Federal regulators and officials should be paying 
attention to the needs of tribal areas and incorporating feedback when 
formulating policy. HUD's decision to update regulations on the Section 
184 home loan guarantee program provides a case study for improvement 
to tribal consultation. HUD began its update by holding listening 
sessions, which it billed as tribal consultation. However, the 
listening sessions were not consultative. These sessions did not 
include information on what features of the Section 184 program had 
driven the need for update, or on what potential updates were proposed. 
Tribes were told the regulations would be pushed out through the 
Federal Register with an open comment period. This does not suggest 
that comments will be taken into consideration and certainly does not 
suggest a consultative and collaborative approach.
Conclusion
    NAHASDA and the IHBG provide tribes a powerful tool to provide 
housing that is appropriate to their local conditions. It is the 
largest single tool tribal housing providers have to provide housing 
and alleviate overcrowded living conditions that hurt the education and 
health of American Indians and Alaska Natives. A fully funded IHBG is 
needed, now more than ever, to address the challenge of overcrowded 
housing in which too many American Indians and Alaska Natives are 
living.
    Thank you to the Chairman, Vice-Chairman and the members of the 
Committee for the opportunity to appear before you today.

    Senator Murkowski. Thank you, Chris. I appreciate very much 
the outlook on what has happened with increasing costs while at 
the same time, funds remain unfortunately at levels that are 
not sufficient. So thank you for raising that.
    Gaetano, thank you for your leadership at the school.

   STATEMENT OF GAETANO BRANCALEONE III, PRINCIPAL, HOGARTH 
                 KINGEEKUK SR. MEMORIAL SCHOOL

    Mr. Brancaleone. Good morning, Senator Murkowski. Whanga 
aatqa Qawaagpaq. My name is Qawaagpaq, or Gaetano David 
Brancaleone, III. I am the principal of Hogarth Kingeekuk Sr. 
Memorial School in the Bering Straits school district. It is my 
fifth year working here as an administrator and my eighth year 
serving the community of Savoonga as a educator.
    I appreciate this opportunity to testify before you today 
about overcrowded housing and specifically the impacts that it 
has on our students in the Bering Straits School 
District.Overcrowded housing can have a direct impact on the 
education of our students. It can deprive them of basic needs 
such as sleep, and can lead to concerns with sanitation, 
health, and basic quality of life.
    When the basic needs of our students are not met, that can 
affect their overall well-being, as some have touched on 
already today, and their ability to focus on being successful 
at school. In our schools, that impact is reflected in low 
attendance rates, exhausted and sleeping students in class, 
emotional distress, and frequent illness and health-related 
absences.
    In speaking with these students and families, trying to 
find ways to support them, some of the challenges that often 
come up in conversation are those about large numbers of people 
in one home, sleeping in shifts, as was mentioned before, the 
difficulty of sleeping when it is your shift because when it is 
your shift to sleep, it is someone else's turn to be awake. 
Sleeping in corners, sleeping on the bare floor, or sleeping on 
a pile of clothes, those are some of the challenges and 
obstacles that the families and students are dealing with that 
are difficult for the school to support. When students and 
families have to navigate the hardships of overcrowded housing 
on a daily basis, their ability to succeed at school is greatly 
hindered.
    Housing is one of the fundamental needs of every family. As 
you noted before, and as has also been noted by some other 
witnesses, the lack of that housing is disproportionately felt 
in Native communities in bush Alaska. I think one of the major 
reasons for that is that in those rural locations, the cost of 
materials and the scarcity of trained tradesmen serve as an 
obstacle to building and maintaining safe, quality, and 
affordable housing. I urge the Committee to continue supporting 
any funding streams that sustain the building of new homes or 
the repair, weatherization and maintenance of existing 
structures.
    I would strongly ask the Committee to develop or promote 
programs that support the training and certification of local 
tradesmen. I think building that capacity locally could greatly 
reduce the costs of constructing and maintaining adequate 
housing in rural locations, and could have a direct and lasting 
impact on the quality of life for rural populations, not only 
in regard to overcrowded housing, but just in regard to hope 
and purpose for the future.
    The issue of overcrowded housing is one piece of the 
puzzle. We touched a little bit on some social issues and how 
different things play into that. I really encourage us to 
think, as we are dealing with symptoms, that we focus on long-
term solutions that actually look at the source of some of 
these issues. So building local capacity and local healing I 
think are very important to consider when we are thinking about 
the steps we are going to be taking to address them.
    I want to thank the Committee for taking the issue of 
overcrowded housing concerns seriously, and for coming out to 
Sivungaq to hear the needs of the people. I hope that your 
visit is an informative one that leads to action. Your actions 
on these matters, or lack thereof, have the potential to change 
lives forever. I trust you will not take that responsibility 
lightly. Igamsiqayugviikamsi. Thank you.
    [The prepared statement of Mr. Brancaleone follows:]

   Prepared Statement of Gaetano Brancaleone III, Principal, Hogarth 
                     Kingeekuk Sr. Memorial School
    Good morning Senator Murkowski. Whanga aatqa Qawaagpaq (Gaetano 
Brancaleone III) and I am the Principal of Hogarth Kingeekuk Sr. 
Memorial School, within the Bering Strait School District in Western 
Alaska. It is my fifth year working as an administrator, and my eighth 
year serving the community of Savoonga as an educator. I appreciate 
this opportunity to testify before you today about Overcrowded Housing 
and the impacts that it has on our students in the Bering Strait School 
District.
    Overcrowded housing has a direct impact on the education of our 
students. It can deprive them of basic needs such as sleep, and can 
lead to concerns with sanitation, health, and basic quality of life. In 
our schools, that impact is reflected in low attendance rates, 
exhausted and sleeping students in class, emotional distress, and 
frequent illness/health related absences. In speaking with these 
students and families, conversations about large numbers of people in 
one home, sleeping in shifts, the difficulty of sleeping when it is 
your shift because it is someone else's ``turn'' to be awake, sleeping 
in corners, sleeping on the bare floor, or sleeping on a pile of 
clothes are not uncommon. When students and families have to navigate 
the hardships of overcrowded housing on a daily basis, their ability to 
succeed at school is greatly hindered.
    Housing is one of the fundamental needs of every family, and the 
lack of that housing is disproportionately felt in Native communities 
in bush Alaska. In these rural locations, the cost of materials and the 
scarcity of trained tradesmen serve as obstacles to building safe, 
quality, and affordable housing. I urge the Committee to continue 
supporting any funding streams that sustain the building of new homes 
or the repair and weatherization of existing structures. I would also 
ask the Committee to develop or promote programs that support the 
training and certification of local tradesmen. Building this capacity 
locally could greatly reduce the costs of constructing adequate housing 
in rural locations, and have a direct and lasting impact on the quality 
of life for rural populations.
    I want to thank the Committee for taking the issue of overcrowded 
housing concerns seriously and for coming out to Sivungaq to hear the 
needs of the people. I hope that your visit is an informative one that 
leads to action. Your actions on these matters, or lack there of, have 
the potential to change lives forever. I trust you will not take that 
responsibility lightly. Igamsiqayugviikamsi.

    Mr. Brancaleone. Is now when Jacob is going to speak?
    Senator Murkowski. If you would like to introduce him.
    Mr. Brancaleone. Yes. This is Jacob Iya. He is a young 
leader in the village. He has done some pretty amazing things 
and has a great voice that he wants to share with you today.

STATEMENT OF JACOB IYA, STUDENT, HOGARTH KINGEEKUK SR. MEMORIAL 
                             SCHOOL

    Mr. Iya. Welcome, ladies and gentlemen. The Native Village 
of Savoonga honors your visit to hear our voice.
    As we all know, the future of this island is held within 
the hands of the children. Their development is beyond 
important for them to grow and become successful members within 
the community.
    However, there are a variety of factors that hinder the 
children's chances of success, such as overcrowded and old 
houses, insufficient resources and illnesses that affect the 
overall health of the children. Some of these houses are so 
overcrowded that diseases, such as a cold, the flu and whooping 
coughs, can easily creep its way into the entire village if 
left untreated. When children become sick, they cannot go to 
school, thus less likely to become successful within the 
community.
    Our shortage of housing is a harsh reality that we, as a 
village, deal with on a yearly basis. There are families that 
seriously need a new house, but are extremely humble, staying 
in a house with more than ten people with a house that was 
meant for five.
    As Savoonga's population is increasing, more housing and 
jobs are needed. With said issues, our culture, language and 
way of life is at risk. I see more and more children being 
deprived of learning our language every year. Traditions and 
moral values have nearly vanished. But for the years to come, 
we have learned to live with what we have, as our ancestors did 
before us.
    Loss of culture and language is slowly becoming a reality. 
But with the assistance of the tribal community and the school, 
we can get our language back. We are an ever-growing people 
that do not know the luxury of having a new house to our own 
for more than a decade, maybe longer. As we all look to the 
path ahead of us, we shall look, not with negativity or 
frustration, but with hope and happiness.
    [Phrase in Native tongue.] Thank you for hearing our voice.
    Senator Murkowski. Thank you, Jacob, and thank you for 
ensuring that we do have the voice of the young people. You are 
really the future. Thank you for expressing that. We are very 
thankful for that.
    Next, let's go to Brianne. It is wonderful to have you here 
and speak from the perspective of health.

  STAETMENT OF BRIANNE P. GOLOGERGEN, CLINIC MANAGER, NORTON 
                    SOUND HEALTH CORPORATION

    Ms. Gologergen. Senator Murkowski, members of the Senate 
Committee on Indian Affairs, it is an honor to testify before 
you today. Igamsiqayugvikamsi, thank you for being here and 
welcome to my home town.
    Convening an Indian Affairs hearing in Savoonga is a 
historic moment. We appreciate your commitment to addressing 
the impacts of overcrowded housing in American Indian and 
Alaska Native communities.
    I was raised by Aaron and Eleanor Gologergen of Savoonga. 
We are blessed to continue to live our way of life and practice 
our traditional lifestyle. We are Siberian Yupik. When I look 
back at how I was raised and the traditional values I was 
taught, I come to the sense that we are a very close-knit 
society. It is in our tradition to care for one another and 
live off our land. Our men climb our beach cliffs, we journey 
the Bering Sea and we roam our tundra. When a member of our 
community loses a loved one, we come together to help the 
grieving family, be it bringing food, cleaning the home, taking 
care of the kids and seeking donations for services. When 
people say, ``It takes a community to raise a child,'' Savoonga 
is part of that living proof.
    I serve as the manager of our local clinic. I am also a 
community health practitioner and have been for the last eight 
years. The clinic delivers acute, chronic and emergent care, 
and is staffed by four health aides: Mary Ann Seppilu, Chantal 
Miklahook, Danielle Reynolds, and Dorothy Kava, along with six 
new hires. The health aides work within the guidelines of the 
Alaska Community Health Aide Practitioner Manual, also known as 
the CHAM, in assessing and referring members of our community 
who seek medical care and consultation.
    Our health aides work under the supervision of a physician 
located in Nome, Dr. Steven Daniel. Our health aides and clinic 
staff are the front lines of health care delivery in our 
community, often experiencing and taking on the impacts of the 
housing crisis in our community.
    Shedding light on the lack of housing, overcrowding in our 
homes and the impacts on our families is not always easy. But 
we recognize it is necessary to improve the lives of those 
living in our community. The health impacts of a lack of 
housing are real and pervasive, impacting entire families. It 
is simply a stressful situation. We must establish a pathway 
for our growing community.
    At a fundamental level, if you don't have your own room or 
a quiet place to sleep, maintaining a regular sleep schedule 
becomes near impossible. When a person experiences a lack of 
sleep, like anyone, they can become irritable. In an 
overcrowded living situation, the entire mood and atmosphere of 
the home can become hostile.
    Now, the stress of one individual due to a packed house has 
impacted everyone in the home. In some situations, it can cause 
violence within the home. When stress is released with 
resentment or physically, we at the clinic experience the 
impact of overcrowding in our community.
    I am going to use general statistics for our region on 
domestic violence, out of respect for our community. In 2015, 
the Justice Center at the University of Alaska Anchorage 
surveyed our region's communities and reported that 51 percent 
of women in our region have experienced intimate partner 
violence, sexual violence, or both during their lifetimes. That 
means roughly one in two women in our region have experienced 
violence. The question remains, with the lack of housing, where 
does one go?
    The health impacts of the housing crisis seen at the clinic 
are generally after hours. We treat and respond to lacerations 
after violence, intoxicated individuals, those who are 
experiencing suicidal ideation, and sometimes fall victim to 
medication overdose or attempted suicide. Unfortunately, these 
situations are common in to many of our Native communities. We 
see the impacts and the stress of the housing situation in our 
mothers and fathers.
    For any scheduled visit, we ask, what are you here for 
today, what can we help you with? Oftentimes our patients are 
very stressed out, due to circumstances at home. It is common 
for our providers to offload that stress in order to provide 
adequate care. Our patients express tremendous amounts of 
stress from the difficulty of providing for the needs of their 
families, including groceries, beds to sleep on, dressers to 
store clothing or a broken freezer that prevents adequate food 
storage.
    We have experienced patients worried because they fear the 
electricity shutting down. During well child visits, parents 
express their gratitude for the Women, Infants and Children 
nutrition program, as it helps feed their kids.
    When the basic needs of housing and food are not met, the 
impacts are carrying much weight on the health of the 
individual. In overcrowded living conditions, the risk of 
spreading illness, such as the common cold or influenza, have 
real impacts on our families. When we have one sick kid, 
everyone else in the house gets sick.
    For those that are on a high-blood pressure medication, we 
ask them to stay away from stressful situations. However, that 
is impossible without adequate housing. We recently experienced 
a recent bedbug incident. However, we found our community ill-
equipped to respond, with nowhere to wash clothes or hot-dry 
belongings.
    In the most recent years, we have had an increasing amount 
of new tuberculosis outbreaks. Larger groups of people living 
in close proximity results in a higher number of patients that 
are at risk of getting tuberculosis.
    In closing, I look forward to hearing the outcomes of this 
hearing. It is imperative we establish pathways for young 
families. I recognize it is going to take all of us working 
together as a community, as a region. With your commitment and 
partnership, I believe we can improve the lives of those living 
here in Savoonga. Thank you.
    [The prepared statement of Ms. Gologergen follows:]

  Prepared Statement of Brianne P. Gologergen, Clinic Manager, Norton 
                        Sound Health Corporation
    Senator Murkowski, members of the Senate Committee on Indian 
Affairs, it is an honor to testify before you today. 
Igamsiqayugvikamsi, thank you, for being here and welcome to my 
hometown. Convening an Indian Affairs hearing in Savoonga is a historic 
moment. We appreciate your commitment to addressing the impacts of 
overcrowded housing in American Indian and Alaska Native communities.
    I was raised by Aaron & Eleanor Gologergen of Savoonga. We are 
blessed to continue to live our way of life and practice our 
traditional lifestyle. We are Siberian Yupik. When I look back at how I 
was raised and the traditional values I was taught, I come to the sense 
that we are a very close knit society. It is in our tradition to care 
for one another and live off of our land. Our men climb our beach 
cliffs, we-- journey the Bering Sea, and we roam our tundra. When a 
member of our community loses a loved one, we come together to help the 
grieving family; be it bringing food, cleaning the home, taking care of 
the kids, & seeking donation for services. When people say ``it takes a 
community to raise a child'', Savoonga is part of that living proof.
    I serve as the manager of our local clinic. I am also a Community 
Health Practitioner. The clinic delivers acute, chronic and emergent 
care and is staffed by 4 health aides: Mary Ann Seppilu, Chantal 
Miklahook, Danielle Reynolds, and Dorothy Kava, along with six new 
hires. 'The health aides work within the guidelines of the Alaska 
Community Health Aide Practitioner Manual (also known as the CHAM) in 
assessing and referring members of our community who seek medical care 
and consultation. Our health aides work under the supervision of a 
physician located in Nome, Dr. Steven Daniel. Our health aides and 
clinic staff are the front lines of health care delivery in our 
community, often experiencing and taking on the impacts of the housing 
crisis in our community.
    Shedding light on the lack of housing, overcrowding in our homes 
and the impacts on our families is not always easy, but we recognize it 
is necessary to improve the lives of those living in our community. The 
health impacts of a lack of housing are real and pervasive, impacting 
entire families. It is simply a stressful situation. We must establish 
a pathway for our growing community.
    At a fundamental level, if you don't have your own room or a quiet 
place to sleep, maintaining a regular sleep schedule becomes near 
impossible. ``When a person experiences a lack of sleep, like anyone, 
they can become irritable. In an overcrowded living situation, the 
entire mood and atmosphere of the home can become hostile. Now, the 
stress of one individual, due to a packed house, has impacted everyone 
in the home. In some situations, it can cause violence within the home. 
When stress is released with resentment or physically, we at the clinic 
experience the impacts of overcrowding in our community.
    I am going to use general statistics for our region on domestic 
violence, out of respect for our community. In 2015, the Justice Center 
at the University of Alaska Anchorage surveyed our region's communities 
and reported that 51 percent of women in our region have experienced 
intimate partner violence, sexual violence, or both during their 
lifetimes. That means roughly 1 in 2 women in our region have 
experienced violence. The question remains, with a lack of housing, 
where does one go?
    The health impacts of the housing crisis seen at the clinic are 
generally after-hours. We treat and respond to lacerations after 
violence, intoxicated individuals, those who are experiencing suicidal 
ideation and sometimes fall victim to medication overdose or attempted 
suicide. Unfortunately, these situations are common in too many of our 
Native communities. We see the impacts and the stress of the housing 
situation in our mothers and fathers.
    For any scheduled visit, we ask ``What are you here for today? What 
can we help you with?'' Often times our patients are very stressed out 
due to circumstances at home and it is common our providers offload 
that stress in order to provide adequate care. Our patients express 
tremendous amounts of stress from the difficulty of providing the needs 
of their families, including: groceries, beds to sleep on, dressers to 
store clothing, or a broken freezer that prevents adequate food 
storage. We have experienced patients worried because they fear their 
electricity shutting down During well child visits, patents express 
their gratitude for the Women, Infants, and Children nutrition program, 
as it helps feed their kids.
    When the basic needs of housing and food are not met, the impacts 
are carrying much weight on the health of the individuaL In overcrowded 
living conditions, the risks of spreading illness such as a common cold 
or influenza have real impacts on our families. When we have one sick 
kid. everyone else in the house gets sick. For those that are on a high 
blood pressure medication we-- ask them to stay away from stressful 
situations; however that is impossible without adequate housing. We 
experienced a recent bed bug incident; however we found our community 
ill equipped to respond with nowhere to wash clothes or hot dry 
belongings. In the most recent years, we've had an increasing amount of 
new Tuberculosis outbreaks; larger groups of people living in close 
proximity results in a higher number of patients that are at risk of 
getting tuberculosis.
    In closing, I look forward to hearing the outcomes of this hearing. 
It is imperative we establish pathways for young families. I recognize 
it is going to take all of us working together, as a community, as a 
region, and with your commitment and partnership I believe we can 
improve the lives of those living here in Savoonga.

    Senator Murkowski. Thank you. Thank you to all of you for 
your words and for helping to educate others about the issues 
of overcrowding and inadequate housing. I think it is important 
that we recognize that the lack of a physical structure or the 
lack of an adequate, safe, sanitary physical structure has such 
an extraordinary ripple effect. Whether its impact on stress 
levels that lead to domestic violence, whether it is impact on 
a child who is not able to get adequate sleep, so therefore 
cannot really function during the school day, so it impacts the 
health, the education, the safety. It is extraordinary in its 
breadth and scope when you think about the significance of 
crowded conditions and what they mean to a family and to a 
community. So I appreciate all that you have shared with us.
    I want to start out my questions with focus first on just 
the number of housing units. Chris, maybe you can help us with 
that. I think you had indicated that here in the State, we 
would need 60,000 to 80,000 homes to alleviate the situation. I 
don't know whether, Greg, you mentioned it in your testimony, 
either. I think you said we would need to increase production 
of housing stock by some 90 percent to meet the needs.
    So can you share with me what is happening on the ground 
right now to bring on additional housing stock? As we walked up 
from the airport, there are six new units that are being built. 
I understand that there is an additional five or six that are 
being built in Gambell right now. But how will that help to 
alleviate the immediate crisis? And what is the plan to do more 
on this island for the immediate hosing needs?
    Mr. Kolerok. Senator, I am Chris Kolerok, with Bering 
Straits Regional Housing Authority. Thank you for that 
question. In Indian Country, we need 60,000 to 80,000 units 
across Indian Country. In Alaska, we need 16,000 units, 
according to a 2018 housing assessment by HFC. That is actually 
up 1,000 units from its last housing assessment in 2015.
    So the housing situation is actually not getting better 
over time. And nowhere is that truer than here in Savoonga.
    Your overall question of what are we going to do and how 
are we going to address inadequate housing is important. I want 
to make sure you are understanding, I am not trying to be flip, 
but we are trying to figure that out ourselves right now. One 
of the things that we need to keep in mind is that these 
housing units that we build with our own work, we self project 
manage, using force account labor, those housing units actually 
cost about 35 percent less than when we had put them out to bid 
to a contractor.
    Senator Murkowski. What will the full cost of these units 
be?
    Mr. Kolerok. These units will be just under the total 
development cost for HUD's guidelines. In total, we are 
expecting about $4.5 million for those six units, which, 
anywhere else in the Country, that amount of money would 
purchase a mansion.
    Senator Murkowski. How much of building cost is directly 
attributable to transportation costs?
    Mr. Kolerok. Transportation is an incredibly large part of 
that figure. The labor and the timing are expensive, the 
materials are expensive, because here, we need to build to a 
120-mile an hour gust wind. We need very robust material, we 
need very good insulative material. And that is slightly more 
expensive than the average material.
    But what makes everything more expensive is getting it 
here. When you think about how we have to get everything out 
here, including a hammer and a nail, that is either coming on a 
boat, or it is coming on an airplane. Just for reference, our 
tickets here were $575.00. On a certain day of the week, we 
could purchase tickets from Seattle to Hong Kong for $575.00.
    Senator Murkowski. That is an important part of the 
reality. This is not just here in Savoonga, but throughout the 
State of Alaska. The transportation costs, the high cost of 
living within the area contribute to the reality that has made 
it very difficult to do more than bring on one or two units at 
a time, because of the cost.
    In terms of barriers to development, developing additional 
stock, it is transportation cost, are there regulatory, well, 
forget the regulatory, how much of an issue is the ability to 
get a sufficient number of lots that you need? I heard that as 
we walked in as well, that you are limited. You have a big 
island here. Delbert, you told me it is 100 miles long and----
    Mr. Pungowiyi. One point two million acres.
    Senator Murkowski. One point two million acres. So people 
would say, you have all this land, why don't you just build 
houses everywhere. And the answer to that, for the record, 
Chris?
    Mr. Kolerok. Senator, the available land that we have is 
what is made available to us by the village corporation. And 
that is true in all of our villages that we operate. We are 
here, we may be close to running out of available lots to 
build. In places like Shaktoolik, there are essentially ten 
lots left in the village to build. So for the foreseeable 
short-term future, we can develop some housing there. But after 
a decade or so, Shaktoolik will essentially be out of places to 
build.
    For us here in Savoonga, our biggest barrier for 
construction has actually be infrastructure. As Delbert 
mentioned, we had taken about a decade for us to return to 
build new homes. As we were in the planning stages, we were 
told by the sewer and water regulator that the sewer and water 
system were at capacity, and that we would not be able to hook 
up our homes unless we built out that system.
    That cost an entire extra home. We had budgeted an 
additional home here. That is not going to be a unique thing to 
Savoonga. We are expending resources to shore up infrastructure 
in Gambell. We will surely do so in Wales and Teller as well.
    On the positive side, with some local partners and people 
taking initiative, like Megan, we are beginning the process of 
working together and sharing information earlier in our 
construction cycle so that we can start solving these problems 
and thinking about them earlier. But at the point where we were 
told it would cost an extra home to build a house, we had been 
waiting a decade and I could not in good conscience wait 
another year for that. So we ate that cost.
    Senator Murkowski. I think it is significant, talking about 
the construction challenges. I know from a regulatory 
perspective, and Greg, I would like your comment son this, that 
we have within the IHS system and the HUD system almost 
inherent barriers. I am not asking you to solve that problem. 
That is actually something that we have to address back in 
Washington, D.C.
    But there are four States, including Alaska, where we have 
a restriction on IHS' ability to serve new homes that were 
built using grants from HUD housing. And this means that new 
homes that are built using grants from HUD are not eligible to 
be served by IHS sanitation construction programs, because they 
have a prohibited use of IHS funds on projects that have 
previously gotten HUD funding.
    If that sounds like gibberish, it should be. It is 
basically how Washington works through different accounts. But 
what it does then is it limits your ability to ensure that when 
you have a home built, it is a whole home, that you can tie in 
to the water and sewer systems. So this is something that we 
have to address.
    Greg, I would like your input in terms of those regulatory 
barriers that are limiting us. I would also like your comment, 
I believe it was stated by you, Chris, that the Indian Housing 
Block Grant provision, which has been so helpful to us, this is 
28 percent down, costs have gone up, but we have not seen 
subsequent increases. Explain to me how that has impacted HUD's 
ability here to do more in the State.
    Mr. Kolerok. Thank you, Senator. I would agree that the 
prohibition for spending those dollars on unfunded projects is 
an issue that needs to be solved. Just from some of the 
information in Kawerak, it talks about hookup charges of 
$40,000 to $60,000.
    Senator Murkowski. That is just for the hookup?
    Mr. Kolerok. Yes. That assumes that the infrastructure is 
on the lot line. So it is an extremely large expense. We see 
that in all of our remote locations. Same with logistics, just 
to echo what you were saying, I have seen that double the cost 
of materials, just to get the materials to the site. That is 
not talking about the heavy equipment and gravel and other 
resources that are necessary. So logistics is extremely, is a 
barrier to building affordable housing in remote Alaska 
communities.
    We have seen, in the data from the use of NAHSADA funds, a 
decline in new units and an uptick on repairing existing homes. 
Our data shows that quite clearly over the last, I would say 
four or five years, there has really been a switch where tribes 
and their designated housing entities are taking on repair work 
instead of new construction. The data doesn't explain it. But I 
would assume it has to do with the cost of construction.
    Senator Murkowski. So let me ask on that, Greg, because it 
is my understanding that a lot of resources from HUD can only 
be used for new construction and not the renovation or the 
upkeep. You are saying that it has been much of the NAHASDA 
dollars that can go toward whether it is maintenance, upkeep or 
efficiency upgrades?
    Mr. Stuckey. Right. So NAHASDA has sort of a menu of 
options that tribes and their housing entities can use. And new 
construction and repair and energy upgrades, all the things you 
just named, are all eligible activities under NAHASDA. That is 
correct.
    Senator Murkowski. Thank you. And then are we seeing HUD 
dollars that are then going to help with some of the energy 
efficiency aspects of it as well, to deal with some of the high 
costs?
    Mr. Stuckey. In the data, it only shows rehabilitation. So 
I couldn't describe that HUD-wide. But here in Alaska, 
certainly we see our housing entities and the tribes performing 
weatherization projects. I think that is important to hear what 
Chris said, that in that when he builds new homes, the 
materials are expensive because of how he is building them, so 
they can be energy efficient. But then when he talks about how 
much fuel they are using, the savings to the family, because 
the family is the one that pays that oil bill, is humongous. So 
those numbers, 100 gallons a month versus 20 gallons a month, 
at $6 or $8 a gallon, is a very large number.
    Senator Murkowski. When you think about what new housing 
brings in terms of lower costs, because of just better build 
and efficiency, dealing with the overcrowding, dealing with the 
disease aspect of it, because I think we recognize, when you 
don't have a house that is efficient and can circulate the air, 
you can have health conditions that are exacerbated because of 
that. I think that is something we see throughout the State, 
the levels of mold when you don't have adequate ventilation.
    But also, you spoke a little bit, Chris, about the jobs, 
and the fact that you face that you utilized force account. So 
you got local folks. In fact, when I came in, I think they must 
have just left here to go back to work. But part of the crew 
that is out there building these units now that are all local 
men. So we are actually creating jobs. You said that you are 
using Alaska-sourced materials that are built to better 
withstand. So there is economic benefit to the region as well.
    Mr. Kolerok. Yes, Senator, that is right. Our crews that 
worked on this project, the majority of the labor was done, 
hired locally. Our heavy equipment that was utilized for moving 
the earth was leased from the tribe and the city. We 
intentionally did as much spending here as possible, because 
that is part of the envisioning of NAHASDA, that housing 
development dollars would benefit the regions in which they are 
happening.
    That is something that we are committed to, one of the side 
benefits of having people who, when we train a local workforce 
up in labor or carpentry, we know that we have a workforce that 
will be able to work for us repairing homes when something 
happens. We also know that we will have one or two people that, 
if they prove themselves technically and with dependability, 
that we will be able to put them on a different crew 
replicating the home.
    We have intentions of repeating use of this home. And we 
are getting faster at building them. But we are also 
identifying people that will be on the next construction 
project who we think will have the dependability to come with 
us.
    So even after the development in this village and in 
Gambell, there is the opportunity for some of those people to 
be earning a wage in constructing in a different village.
    Senator Murkowski. Gaetano, you had mentioned training for 
local tradesmen. Do we have any programs within the school that 
might be considered vocational education, actually helping to 
build put this workforce?
    Mr. Brancaleone. Yes, absolutely. We were just able to 
construct an additional shop, additional shops here. So we have 
a wood shop, we also have a welding shop and a small engine job 
that are kind of geared toward that CTE, careers and technical 
education. We also partner with NACTEC in Nome. They have some 
pretty great programs that kids go out and participate in.
    I just really believe in the importance of building that 
local capacity and training even in the programs of things that 
are within our reach. So we talk about material costs, and 
those things will always be a challenge or a barrier to 
overcome.
    So what can we do outside of that? So building that local 
capacity, not just for constructing completely new units, but 
if you have 50 guys in town who are really good at analyzing a 
building for its energy efficiency or how to repair that and 
how to work on those, just with what they can pick up off the 
ground, I mean, the skills and ingenuity of people I have met 
out here is amazing. So if you guide that toward what can we do 
now without having to wait on outside help, I think that can 
not only help alleviate some of the immediate problems that we 
have, but also just instill value in people in a sense of, you 
can feel good about what you are doing and the change you are 
having in your village.
    Senator Murkowski. I would like to ask, both you, Gaetano, 
and then Brianne, you are a young professional in education, 
Brianne, you are a young professional in health care. What does 
it mean for purposes of your ability to bring in new teachers 
and have them feel good about staying in this community? You 
have been here for eight years. I met some of the teachers as I 
came in. It sounds like you are doing a good job out here in 
not only recruiting but retaining teachers. But I know that 
housing is always an issue.
    Also on the health care side, as you seek to bring in 
people who may wish to work here in Savoonga, at the clinic, 
but they don't have a family here, so they can't just move in 
with their parents or an auntie. How does the housing issue 
impact your ability to bring in people from the outside to come 
and call Savoonga home?
    Mr. Brancaleone. Thank you, Senator. As you spoke about in 
your opening statement, talking about the principal living in 
the closet, I am very thankful that I do not have that 
situation today. There definitely have been great gains and 
progress in regard to providing housing for teachers.
    That being said, we do still have a wide variety in the 
quality of our housing units for teachers. And there are 
housing issues that have been cited by teachers who have left 
in regard to their desire or willingness to stay out here. So 
there are challenges, again, with materials getting out here 
and the ability to repair when things go down and the sewer 
system.
    So it is definitely something that is still a challenge in 
regard to retention. We still actually have three positions 
open this year that we are hoping to fill, and we start on 
Tuesday. So there has been a lot of progress made, but it is 
still a challenge in regard to people being comfortable living 
here.
    Senator Murkowski. Brianne, how about on the health care 
side?
    Ms. Gologergen. It is hard. It costs a lot of money to get 
out here. For me to get out is $600 round-trip. And I have, for 
just three of us, me, my boyfriend and my daughter, it is 
$1,200 just to take a vacation. That is not including prices to 
Anchorage.
    So it would be a challenge, to bring your entire family, to 
move out here. And a lot of the problems I have heard from 
providers moving out here is the isolation. But that too, the 
lack of housing, we have our PA, Troy Wiles is here until 
November, he is a traveling provider. He has been helping out 
here. But we still have a vacant for position for a mid-level 
provider to move out here, relocate here.
    And they are building a duplex for PA housing right now, so 
that way we can better invite somebody to move out here and 
they would have a place to stay.
    Senator Murkowski. So, Delbert, as President of the Native 
Village of Savoonga, do you have people that are coming into 
the community, whether it is to look at some of the 
contaminated lands issues, or to maintain the wind turbines 
that you have out there, or just inspect them, it is expensive, 
yes, we recognize, to get out here. But then if people need to 
stay out here or want to stay out here for a period of time, is 
it fair to say that there no options for them to find a place 
to live?
    Mr. Pungowiyi. With the severe housing crisis we have, that 
is a big obstacle, I believe. We are trying to do some self-
generating entities, we have put up that. But it is like a 
snack and lodge for guests coming out here. But I do believe 
that having a place for them is a big problem.
    Senator Murkowski. Let me ask, as a community leader, you 
are responsible for the health and well-being of members of the 
community. How does overcrowding impact emergency preparedness? 
For instance, if the community had to be evacuated during a 
storm, is there a place to shelter in place? Obviously you have 
the school here. But with the housing that you have, is that a 
worry for you as a community leader?
    Mr. Pungowiyi. Yes. I will give you an example. I don't 
recollect what year it was, but we had an electrical disaster 
from the ice not coming in like it is normally supposed to, the 
north wind sprayed lots of salt water on the power lines. So we 
had a power outage within several hours. Gaetano knows, he was 
here. Over 400 families, 400 people in the high school. The 
homes got shut down, the water and sewer froze up.
    Within a few hours, the store was wiped out. So this is the 
only shelter for any disaster. That is why we are so concerned 
about tsunami shelters, evacuation roads and shelters. 
According to the State of Alaska's coordinator for the tsunami 
warning and urging everyone along the cost, grants for tsunami 
shelters, evacuation roads, it is not a question of if Alaska 
will get struck with tsunami, it is a question of when. That 
really is scary to all those of us that live along the coast. 
At any moment, tsunami can strike.
    So those are really issues that we feel, we believe that is 
in desperate need of action, so that we can have, at least an 
evacuation road, even if we could get just a road and the 
foundation for it, at least we would have somewhere to evacuate 
to, to higher ground. We have nowhere else to go for higher 
ground than up toward the mountains.
    Senator Murkowski. Let me ask just a couple more questions 
before we quit. I know there is a lunch planned.
    As I was visiting with people before coming in, I was 
asking about the units that will soon be finished up and the 
process for being selected to receive one of those houses, and 
housing application process. We just had a hearing in Indian 
Affairs last week that was focused on Native languages and the 
opportunity to utilize grants. One of the things we heard very 
clearly was that the process to gain these grants is very 
complicated. It is difficult to navigate.
    So I would ask you, Delbert, or any of you who may have had 
or who can share the experience in applying for housing 
assistance, how difficult is it? The one gentleman I was 
speaking with said that he had been on the list for years and 
years and years and years. And that the process was one that 
was lengthy and not easy. If someone can speak to that, that 
would be helpful.
    Mr. Kolerok. Senator, the process for applying for a home 
itself is--it is a bureaucratic paperwork, and that is what it 
is. The disheartening thing about it is, our last development 
was over a decade ago. So as people are applying for housing, 
in order to keep their date of application, they must annually 
recertify. And if there has been no new housing development for 
a decade, it is maddening for a person to recertify, not 
knowing if there is new housing even available. But doing so 
just to keep their spot in line.
    What is even more difficult, we utilize a preference point 
system for selection. The preference points take into account 
factors such as an applicant's living in a substandard home, or 
if they are disabled or an elder. It is a little bit glib, but 
the worse a person's housing situation, the higher they are as 
a priority. And what is frustrating is when someone has been on 
a waiting list for ten years waiting for a home and someone, a 
different person applies for a house and they have multiple 
factors that put them in a higher priority.
    It is not easy. But we have adopted that system because we 
are, families are small, this region is small. So we have tried 
to put in place a system that is as black and white as 
possible, to make sure that we are as far as possible when 
considering the need for homes.
    Senator Murkowski. That is a hard reality, I agree. Jacob, 
you are a young man, going to be graduating this next year. 
Congratulations. As you think of your future here in Savoonga, 
we hear of the high costs, we hear of the long waiting list for 
housing, there will come a point when you will want to start 
your family, have your opportunities in front of you.
    Because of the housing issues that you have grown up, that 
you live with, do you see this as a limiting factor for your 
future, if you don't have a place for your family in the 
future? Do you think that this might push you out of the 
village that you've grown up in, out to Nome or Anchorage or to 
other places? How does the overcrowding impact how you view 
your future in Savoonga?
    Mr. Iya. It will be [inaudible] my grandmother pay the 
bills, and she struggles to put food on the table. Growing up, 
we were taught our morals and values, to live with one another. 
But as I see now, as I look to the future, I look not with 
temptation but with peace and happiness. I want to start my 
family as soon as I get out of college, when I have enough 
money to support a family. I will move out of this village and 
hope for a better life. But this village can still undergo 
certain changes that will help make its future brighter.
    As I look to the future, more and more, there is a heavy 
pressure being weighed on our shoulders, the children of this 
community. I hope to alleviate that pressure in the future. 
Thank you, Senator Murkowski.
    Senator Murkowski. Thank you, Jacob. You have articulated 
in a strong, beautiful way why we need to continue to work 
together to address these very basic issues. Because housing is 
a basic need. And when our future leaders don't feel that the 
place that they call home is one that is going to be part of 
their future, that makes it a very difficult reality for those 
who are living here today.
    You have summed up in a strong and beautiful way why these 
issues are so important.
    We haven't gone into some of the detail about the social 
aspects, although I think Brianne and Gaetano and Delbert, you 
have each addressed, again, this ripple effect. When you don't 
have the structure over your head, when you have too many human 
beings in too small a space, the stress that comes with it 
manifests itself in different ways, whether it is substance 
abuse, whether it is outbursts of violence or assault, whether 
it is just the inability to concentrate on your school or your 
work because of inadequate sleep, the outcome from health 
consequences, as disease and germs are spread, the inability to 
wash your family's clothes, to have basic hygiene, the impact 
on education and graduation rates.
    I look at all that so many of you are trying to do. But 
sometimes these issues are beyond your control. The principal 
cannot go out and build more homes, so that his students can 
get a good night's sleep on a daily basis. Those who run our 
clinics can't go out and build new homes so that the spread of 
disease is arrested. So we have an obligation, a responsibility 
to be working on these issues that again, surround a very 
basic, basic need.
    There is so much more that we have to share. We will have 
an opportunity to do a little bit of walk-around this afternoon 
and visit, not only some of the new housing stock, but 
hopefully some of the existing homes that are experiencing the 
extreme overcrowding. That will be important.
    We will also have an opportunity to engage further with the 
community. So I would ask that in a more informal setting, you 
share your stories, not just with me, but again, with members 
of the Indian Affairs Committee staff and those who have come 
to Savoonga today.
    I mentioned to somebody this morning, yesterday I woke up 
in Washington, D.C. I spent the night in Nome. Three thousand, 
nine hundred and forty-seven miles. So coming here this 
morning, I think I am over 4,000 miles. But Delbert, you 
reminded me, we are 40 miles from Russia. I need to make sure 
that the people who are in Washington, D.C., some 4,000 miles 
from here, and four time zones, can see and hear and feel why 
these issues are so important.
    You may be 4,000 miles away from our Nation's capital, but 
you are part of the United States of America. As Americans, you 
deserve to have safe and sanitary living conditions. So this is 
what we are going to keep working on. Thank you for helping us 
create the record with the Indian Affairs Committee today.
    I want to thank you. I will note that if there are 
questions that Committee members may want to submit for the 
record, the hearing record will be kept open for two weeks. I 
want to thank, again, the witnesses for their time.
    With that, the Senate Committee on Indian Affairs stands 
adjourned.
    [Whereupon, at 12:28 p.m., the hearing was concluded.]

                            A P P E N D I X

    Prepared Statement of Mary David, Acting President, Kawerak Inc.
    Chairman Hoeven, Vice Chairman Udall, Senator Murkowski, members of 
the Senate Committee on Indian Affairs, it is an honor to welcome you 
to the Bering Strait region. The lack of access to affordable, 
efficient and safe housing impacts the health of our families and the 
education of our children. For too many generations, the lack of 
adequate housing has remained a silent crisis. Our tribal leaders 
recognize that we must change the paradigm to improve opportunities for 
the next generation and invest in the sustainability of our 
communities. Addressing the housing crisis remains our top priority.
    Kawerak Inc. represents and serves the 20 tribal governments of the 
Bering Strait region, operating a tribal self-governance consortium of 
federal and state agencies. The Bering Strait region is home to Yupik, 
St. Lawrence Island Yupik and Inupiaq communities that have remained 
over millennia. Roughly 10,000 residents are located in 16 communities 
that continue to be sustained by the wealth of our location. The 
spirituality, well-being and health of our families and extended 
families is directly tied to our ability to hunt, fish, and gather. One 
of the largest migrations of birds and marine mammals including whales, 
walrus, and seals pass through the Bering Strait between the Pacific to 
the Arctic oceans. Our way of life can be defined by our natural 
resource rich environment, and what we harvest and gather during each 
season of the year.
    The Department of Housing and Urban Development estimates a 
shortage of 1,386 homes in the Bering Strait region. According to a 
2014 study conducted by the Association of Alaska Housing Authorities 
(AAHA), over 20 percent of homes in the region are overcrowded, with 
multiple generations or multiple families living under one roof. The 
community of Savoonga faces the highest overcrowding rate of any census 
area at 61 percent. Our population of 10,000 in the region continues to 
grow at roughly 10-20 percent every decade, according to U.S. Census 
data, and new housing construction has not kept up with our population 
growth.
    Leaders of the Bering Strait region have recognized the need to 
address the housing crisis from a holistic approach including community 
planning, reducing the cost of construction, the state of sanitation 
and energy infrastructure, as well as improving access to basic 
government and financial services. The AAHA survey also highlights that 
the Bering Strait region has the least energy efficient homes in the 
State. The American Community Survey by the U.S. Census estimates 
approximately 24 percent of households in the region spend 30 percent 
or more of total income on housing costs including rent, water and 
sewer, and energy costs.
    The lack of public infrastructure provides additional challenges to 
addressing the housing crisis. The cost of building a home in our 
communities runs between $500,000 and $600,000, depending on the 
existence of public infrastructure. Connecting homes to sewer and water 
adds roughly $40,000 to $60,000. An estimated 465 homes in the Bering 
Strait region do not have access to running water and sewer, with five 
communities remaining un-piped and unconnected to sanitation services 
(Stebbins, Teller, Wales, Diomede, and Shishmaref).
    The pathway to service established by federal and state partners is 
complex and underfunded. Under the present allocation system, our 
leaders are contending with the reality that our unconnected 
communities will remain unserved over the next decade, unless swift 
action is taken. In partnership with Norton Sound Health Corporation, 
Kawerak continues to ensure federal and statewide agencies are 
responsive to the sanitation needs in our Bering Strait region 
communities.
    Understanding the housing crisis from a statistical standpoint 
provides insight on the magnitude of need and required investment, yet 
the gravity of our reality must be understood through the context of 
our history. The health of our communities is defined by our ability to 
live our way of life on our lands and waters. Alaska's early history of 
the colonization of Alaska Natives people has had intergenerational 
impacts on the cultural health of entire communities, including 
disease, language loss and relocation. The increasing regulation of 
complex state, federal and international jurisdictions has burdened our 
ability to hunt and fish on our homelands. Alcohol continues to impact 
families of the region in debilitating ways. The economic costs to our 
society are real with increased high school drop outs, the high rate of 
suicide (four times the national average) and lost productivity. The 
cornerstone of building a healthy and a strong economy is the ability 
to live our way of life on our homelands.
Bering Strait Region Housing Strategy
    Our tribal leaders recognize that addressing the magnitude of 
challenges before us will require a strong commitment to partnership. 
Our tribal leaders have begun dialogues in understanding the role of 
our tribal governments, city governments, native corporations, and our 
regional tribal consortia in the planning and investment of 
infrastructure needs in our communities. Living our way of life on our 
lands and waters has sustained our wealth as a people. It is with that 
in mind we envision the sustainable development of our communities with 
culturally relevant infrastructure. In partnership with regional 
organizations, Kawerak Inc. has undertaken the development of a Bering 
Strait Region Housing Strategy to evaluate and establish pathways to 
homeownership in our communities.
    The Bering Strait Region Housing Strategy will explore the 
following themes:

  <bullet> Community Preparedness for Development

  <bullet> Reducing jurisdictional complexities in community governance 
        to streamline infrastructure development and improve operations 
        and maintenance of existing systems.

  <bullet> Improving Access to Finance & Government Services

  <bullet> Energy Efficiency & Utility Planning

  <bullet> Research & Development for Arctic Engineering and Design

  <bullet> Culturally relevant infrastructure development

    In order to ensure our communities are development ready, leaders 
recognize we must understand inherent jurisdictional complexities that 
are the reality of rural Alaska today. Identifying land for development 
and platting lots, planning for roads, sewer and water, and energy 
infrastructure requires involvement and decisionmaking among multiple 
community and regional leaders. Understanding the roles of our Alaska 
Native corporations as land owners, city governments as utility owners, 
as well as tribal governments and their associated regional tribal 
organizations as service providers delivering investment in housing, 
sewer and water, and roads. Kawerak has convened dialogues with tribal, 
city, and corporation leaders to empower leaders with the knowledge and 
tools to change the paradigm for the planning and development of 
communities.
    With the goal of improving economies of scale and reducing the cost 
of construction in our communities, Kawerak has embarked on the 
creation of Long Range Infrastructure Plans in partnership with 
communities to allow for coordination if not cooperation in the 
planning and investment of public infrastructure. With dialogue at both 
the community and regional level our work has just begun. Business 
managers of regional tribal organizations have begun to understand our 
collective assets from a regional strategic perspective to reduce 
labor, equipment, material, and transportation costs in our 
communities.
    Much work remains to improve the affordability of new home 
construction, establish access to financial services, as well as 
improve the general economic conditions of our communities. In closing 
we appreciate the commitment and partnership of Senator Murkowski, 
Senator Sullivan, Congressman Young, the Senate Committee on Indian 
Affairs, and the United States Department of Housing and Urban 
Development.
    Kawerak encourages the Senate Committee on Indian Affairs & 
Congress to:

  <bullet> Reauthorize the Native American Housing Assistance and Self 
        Determination Act and support the increase appropriations for 
        the Indian Housing Block Grant to $700 million.

  <bullet> Request the GAO to work with tribal leaders to conduct a 
        regulatory review of the market barriers to home ownership and 
        identify barriers to expanding financing options in remote and 
        rural economies.

  <bullet> Establish an interagency task force to develop a pathway to 
        homeownership in Native communities, including the creation of 
        a single intake form for all federal housing programs (USDA, 
        BIA, HUD, VA).

  <bullet> Support the research and development to improve construction 
        design & engineering in Arctic communities.

  <bullet> Explore options for a tribally driven lending instrument 
        with the Department of Treasury.

  <bullet> Support the creation of tax incentives for housing 
        construction in rural communities by Alaska Native 
        corporations.

  <bullet> Improve the collection of U.S. Census and American Community 
        Survey data. Provide the financial resources to tribes, so 
        accurate data can be obtained at the local level.

  <bullet> Reform the Denali Commission to assist communities with pre-
        development operations (planning, plating) to encourage public 
        infrastructure investment in communities.

  <bullet> Encourage the BIA Division of Economic Development to invest 
        and support village corporation and tribal business in the home 
        construction and manufacturing industry.

    The United States provides humanitarian efforts to other countries; 
often times spending millions of dollars in aid. We are in a 
humanitarian situation due to the severe overcrowding and lack of 
adequate and affordable housing. Physical requirements for human 
survival and to function properly is shelter. We live in the most 
developed country in the world, but still struggle and face challenges 
in many areas. Thank you for allowing testimony on this important 
issue.
                                 ______
                                 
         Prepared Statement of Norton Sound Health Corporation
Overcrowding Negatively Impacts Health
    The World Health Organization defines overcrowding as more than 1.5 
persons per habitable room (rooms other than bathroom and kitchen).
    Health: Studies have definitely linked overcrowding to higher risks 
of tuberculosis, meningitis, acute and chronic respiratory illnesses, 
SIDS, and child mortality. As patients age, the risk of H. Pylori, the 
bacteria responsible for stomach ulcers and stomach cancer, is highly 
correlated to overcrowding.
    Respiratory: A human sneeze carries water droplets (and the 
viruses/bacteria in them) up to 15 feet from the source. In crowded 
homes coughing and sneezing quickly spreads respiratory infections to 
an entire home with ``no where to hide''. This leads to rapid spread of 
colds, flu's and pneumonia throughout communities. Research shows that 
overcrowded homes vastly increase the spread of tuberculosis (TB).
    Air Pollution: Crowded indoor spaces amplify the effects of air 
pollutants, especially in Alaskan homes with poor ventilation. Tobacco 
smoke, carbon monoxide (from furnaces and wood stoves, fine particulate 
air particles (like dust/dander) increases and/or concentrate. This has 
been shown to directly correlate to childhood asthma and COPD an 
emphysema in adults.
    Gastrointestinal: Crowded homes make sanitation much more 
difficult, which increases the transmission of communicable diseases 
like gastrointestinal infections, H. Pylori infection (linked to 
stomach ulcers and stomach cancer), as well as risk for fecal/oral 
transmission of infections like Noro virus, Hepatitis A, and Shigella.
    Skin infections: Increased crowding in homes directly correlates to 
increased incidence of diseases like scabies and lice. Also, higher 
rates of cellulitis, impetigo, eczema, and allergies are seen in 
crowded homes especially where limited sanitation options are 
availability.
    Mental Health: In a British study, researchers found that 86 
percent of overcrowded households stated that depression, anxiety and 
stress resulted from cramped living conditions; further 75 percent 
reported that overcrowding negatively affected children's health. (Full 
house? How overcrowded housing affects families). Research shows that 
increased population density in homes is correlated with increased 
aggression, less stable families, decreased maternal/child interaction, 
and higher rates of illness.
    Mortality: The World Health Organization has linked overcrowding to 
risk of sudden infant death syndrome, child mortality, poor maternal/
fetal outcomes, and overall decreased life expectancy.
    Educational Outcomes: Children who lack comfortable, quiet space 
have increased difficulty with studying and reading affecting school 
performance. Further, when space is more scarce, different sleeping 
schedules held by household members may disturb children's sleep, 
leading to difficulty concentrating during the day, negatively 
affecting mood, behavioral and school performance. In-addition, 
children in crowded housing have a higher probability of contracting 
illnesses, which further interfere with routines and increase school 
absenteeism. (Solari, et al. Soc Sci Res. 2012 Mar; 41(2): 464-476.))
    Long term: These educational, behavioral, and physical health 
disadvantages continue v..with children throughout their lives 
decreasing their chances to access higher education-and socioeconomic 
attainment. Ultimately, this often results in children finding 
themselves in similar situations as their parents, contributing to 
intergenerational transmission of social inequality. (Leventhal and 
Newman 2010)

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
